No.

Supreme Court, U.S.
FILED

7J 72 m

FEB 24 2021

/

OFFICE OF THE CLERK

3(n ®I)e
Supreme Court of tlje ®mteb States
IN RE ADESIJUOLA OGUNJOBI,
Petitioner

ON PETITION FOR A WRIT OF MANDAMUS
TO THE UNITED STATES ATTORNEYS OFFICE
FOR THE NORTHERN DISTRICT OF CALIFORNIA

PETITION FOR A WRIT OF MANDAMUS

ADESIJUOLA OGUNJOBI
10200 BELLE RIVE BLVD
BLDG 6 UNIT 45
JACKSONVILLE, FL 32256
(904) 894-1466

RECEIVED
MAR 1 6 2021
SUPREME:COURtLunsK

QUESTIONS PRESENTED
The global community is facing the most egregious crime ever committed
against humanity as in the invention or fabrication of Coronavirus aka COVID-19
a virus that doesn’t exist, but now entering the last phase which is “illusion of
immortality” which means the COVID-19 scammers (WORLD HEALTH
ORGANIZATION aka WHO) are pushing for every human to embrace “illusion of
immortality.”
The questions presented are:
1. Whether DOJ officials have the authority to block $25,000,000 in loan secured by
Petitioner to retain attorneys to prosecute the COVID-19 class action challenge
including partnership with the United States because petitioner filed motion for
intervention as “Plaintiff-Intervernor” joining United States, the Plaintiff in a civil
forfeiture lawsuit.
2. Whether petitioner (and global community) is entitled to relief pursuant to 28
U.S.C. § 1651(a) to compel DOJ officials to sign the contract, accept the $2.5 billion
cash offer from petitioner to purchase assets seized by DOJ from a website that
engaged in criminal activities which is bound for auction and finally allow
petitioner to gain access to already secured $25,000,000 ($25 million) loan to cover
expenses regarding the COVID-19 class action challenge, or other relief as the
Court deemed appropriate.

ii

PARTIES TO THE PROCEEDINGS
Petitioner (Plaintiff-1ntervenor in the district court and appellant in the court
of appeal for the ninth circuit) is Adesijuola O. Ogunjobi.
Respondent in this Court is David L. Anderson, United States Attorney for
the Northern District of California. Respondents also include Assistant United
States Attorneys Matthew M. Yelovic, David B. Countryman, Chris Kaltsas,
Claudia Quiroz and William Frentzen.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED..............................
PARTIES TO THE PROCEEDINGS................
OPINIONS BELOW...........................................
JURISDICTION..................................................
STATUTE INVOLVED......................................
INTRODUCTION...............................................
STATEMENT OF THE CASE...........................
REASONS FOR GRANTING THE PETITION
CONCLUSION...................................................

1
11

2
2
2
3

9
16
21

APPENDICES
APPENDIX A ■ District Order...............
APPENDIX B ■ District Court Order....
APPENDIX C ■ Court of Appeals Order

la
3a
5a

iv

TABLE OF AUTHORITIES
CASES
Citations omitted (Due to COVID-19 lawsuits are based on misconception See
21
CITATION(S)
CONSTITUTIONAL PROVISIONS
Article
Article
Article
Article

I, Section 1...
III, Section 1
III, Section 2
II, Section 4..

18
19
19
19

STATUTES
18U.S.C. § 1651(a)..................
Equal Credit Opportunity Act
Federal Reserve Act.................
28 U.S.C. § 1651........................
12 U.S.C. § 343..........................
12 U.S.C. § 343(3).....................
Civil Rights Act 1964..............
18 U.S.C. §§ 981.............. ........
18 U.S.C. § 981(a)(1)(A)..........
18 U.S.C. § 981(a)(1)(C)..........
18 U.S.C. § 981(b).....................
21 U.S.C. § 881(a)(6)................

l

2
2
2
2
2
3
3
9
9
9
9

RULE
Circuit Rule 3-4..
Circuit Rule 27-3

13
14

1

PETITION FOR A WRIT OF MANDAMUS

Adesijuola Ogunjobi respectfully petitions for a writ of mandamus which is
an extraordinary remedy, which should only be used in exceptional circumstances of
peculiar emergency or public importance in this case to order and compel United
States Attorney’s office for the Northern District of California to cease interfering
(indirectly) the public’s right to COVID-19 class action challenge that was filed on
June 1, 2020 in the United States District Court for the Eastern District of Virginia
Richmond Division due to $25,000,000 loan secured to prosecute the COVID-19
class action challenge to determine if COVID-19 is real or not because at this stage
COVID-19 is a scam, hoax and total fraud and the challenge is proper. Cash offer
was proposed by petitioner to purchase all the assets (bitcoins and cryptocurrecies)
seized by DOJ officials from a website and other wallet tied to Silk Road and also
make deposit of 3,083 bitcoins into an account of petitioner at BlockFi due to
$25,000,000 ($25 million) loan secured via signing of loan document with BlokFi
aka Bitcoin Lender which requires 3,083 bitcoins to serve as “collateral” against the
$25 million loan which is 12 months which will be used to start pre-trial of COVID19 class action challenge. [We] got the money to proceed in court to find out the
truth on behalf of global community. This will also include any contract or
agreement to be signed by petitioner that within 90 days $2.5 billion in cash will be
paid to the United States. Petitioner is not seeking any form of alternative for a writ

2

of certiorari to review the orders because the orders lack any form of legal
precedent(s), furthermore the orders can be classified as “baseless” and
“mischievous” orders even though there’re contents. The orders are prima facie and
“moot.” Petitioner’s writ is directed to United States Attorney’s Office for the
Northern District of California, not directed to the Courts involved.
OPINION BELOW
The orders of the District Court are not reported, but are reproduced at Pet.
App. A - B Court of Appeals Order is not reported, but reproduced at Pet. App. C.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1651.
STATUTE INVOLVED
The Equal Credit Opportunity Act (ECOA) prohibits credit discrimination on
the basis of race, color, religion, national origin, sex, marital status, age, or because
one gets public assistance. Federal Reserve Act, 12 U.S.C. Section 343 authorizes
any Federal reserve bank may discount notes, drafts, and bills of exchange issued or
drawn for agricultural, industrial, or commercial purposes, or the proceeds of which
have been used, or are to be used for such purposes. Federal Reserve Act, 12 U.S.C.
Section 343(3) authorizes in an unusual and exigent circumstances, the Board of
Governors of the Federal Reserve System, by the affirmative vote of not less than
five members, may authorize any Federal reserve bank during such periods...to
discount for any participant of any program or facility with broad based eligibility.
notes, drafts, and bills of exchange when such notes, drafts, and bills of exchange

3

are indorsed or otherwise secured to the satisfaction of the Federal reserve bank.
The Civil Rights Act 1964 authorizes in civil rights and labor law in the United
States that outlaws discrimination based on race, color, religion, sex, national
origin, and later sexual orientation and gender identity. 18 U.S.C. §§ 981 authorizes
Government to subject a property that engages in unlawful activity to forfeiture.
INTRODUCTION
Adesijuola Ogunjobi seeks a writ of mandamus to compel the United States
Attorney’s Office for the Northern District of California to deposit the 3,083 bitcoins
to support the $25,000,000 ($25 million) loan secured with a bitcoin lender because
that $25 million will start the preliminary prosecution of COVID'19 class action
challenge, including using the fund to arrange $2.5 billion in capital to pay United
States for the seized assets (bitcoins) via a contract that specified the amount paid
within 90 days. United States like all other countries is bleeding literally speaking
because this country has spent almost $10 trillion funding COVID-19 scam via
stimulus checks (some citizens didn’t even receive such checks because IRS sending
checks to addresses some citizens are no longer there or bank accounts closed) that
will never replace regular decent paychecks, created new classes of members of
society via bigotry (“essential worker” and “non-essential worker”), and total
paranoia to deal with a virus now questionable. United States filed numerous
criminal complaints against various parties that led to seized assets (biotcoins)
petitioner submitted via motion for intervention to purchase for $2.5 billion in cash
because these assets will be auctioned off, period. However, the Government wasn’t

4

that successful seizing these assets tied to unlawful activities because over $15
billion or more assets (bitcoins and other cryptocurrencies) disappeared into other
criminal hands before the Government got to this particular assets. Interestingly
this Court must realize the bigger issue here is not the seized bitcoins, but COVID19 scam. The assets seized are drop in the bucket compared to COVID-19 scam
which is the real threat to this universe, period. The respondents in their response
will engage in so-called transaction under Toks or Toks Banc Corp, that’s not the
issue before this Court because the respondents are not sophisticated enough to
digest the talent behind such transaction that will lead to distraction of the real
issue before this Court which is the most important issue is funds ($25 million)
secured to start the prosecution of COVID-19 scam challenge. Petitioner is an
entrepreneur and entrepreneurs create jobs via ideas. Petitioner is worried that jobs
might not be able to be created due to bogus COVID-19 scam that promotes bogus
guidelines to limit population or numbers of the crowd which is scary because we’re
heading to an era where governments can order people to be killed to protect bogus
spread of a virus or limit to contract or spread of the virus is the most disgusting
manipulation ever orchestrated because diseases or any form of viruses that cause
diseases don’t spread, people contract diseases and no conclusive data has explained
why some people get sick and others don’t. This has nothing to do with “immune
system” which plays vital role in every human to function daily until the immune
system is exhausted and such creature expires. Also immune system cannot prevent
one from dying because people have died in many ways without immune system’s

5

dysfunction. Not complicated at all, just stating that immune system has nothing to
do with how people get sick and die. Petitioner’s role is to enlighten this Court
because this Court needs guidance to make UNANIMOUS ruling granting the writ
of mandamus. Respondents are incensed and petitioner will not elaborate, only
focus on guiding this Court to make the right decision that will impact this
generation and next generations to come in the near future across the globe. This
generation cannot afford GENOCIDES via bogus COVID-19 vaccines or just mere
governments engaging in slaughter of humans to contain spread of a virus because
at the end of the day, viruses/diseases don’t spread. This Court will be surprised
WHO officials are already scaring people of COVID-19 variants and locking people
down will never be enough, governments must take drastic measures to contain a
bogus virus which is a subtle message to KILL people and to add to this egregious
scenario, people already exhibiting this macabre fantasy of trying not to contract
COVID-19 scam virus which would lead to subtle message if this virus couldn’t be
contained, then take out people as in “superspreader”1. This Court is facing the
most important decision ever presented to any Court2 on the face of the earth.
COVID-19 scam will lead to atrocities this universe has never witnessed. The riot in
Washington, DC on January 6, 2021 is a preview of another CIVIL WAR. The cause
of the riot is COVID-19 scam. For the first time in history of this universe, peoples

1 Superspreader is the new "terminology" that label certain individuals they're the carrier of COVID-19 virus, but
they don't develop symptoms, they spread the virus which is total misconception.
2 Petitioner is submitting the writ of mandamus Pro Se because DOJ officials keep blocking the access to $25
million which they know will round up attorneys to pursue the declaration of COVID-19 a scam. However, being
Pro Se doesn't mean this writ of mandamus has no merit. The worst human beings got the best lawyers
representing them.

6

across the globe are restricted. Voters in the United States couldn’t vote. People
can’t go out without government officials issuing orders to restrict them. This very
Court just enjoined indoor worshipping with limitation which is based on COVID-19
scam as opposed to this Court to reject outright COVID-19 does not exist, people
should go and worship, eat, go to movies, etc. The impeachment trial that just ended
is misguided and blaming the wrong party, COVID-19 scam is to blame. Period.
There are other riots as well outside United States because people will eventually
be tired of bogus concerns based on health. COVID-19 scam will cause more havocs
because the scammers behind it will never give up of manipulating the global
community.
Any death today is defined as unnatural and people that are dead are not
humans, even though the Creator made humans mortal, but humans are now
“immortal” via recommendation of bogus COVID-19 vaccines, guidelines full of
paranoia, 14-day quarantine with no evidence it is “effective,” ridiculous and quack
testing for COVID-19 via nostrils with cotton swab even if it is seen in a movie it
would be that—a “fiction,” test results that are so clandestine no one has any clue
how they reach such conclusion, radical behaviors like 6 Feet Social Distancing
which originated from the era of slavery when white slave owners used to tell black
slaves to keep their distance based on brutal treatment of the slaves back then
which requires the owners to be cautious because conventional wisdom dictates if
one mistreats others, they ought to be careful and keep their distance as opposed to
those that treat others with respect need not to keep their distance (keeping one

7

distance does not guarantee one cannot contract any form of existing virus—total
misguided wisdom), mask wearing and gloves with sanitizers with no evidence such
recommendation protects people, fines issued out to violators (making COVID-19 a
“felony” without statutes), arrests, lock downs that looked like Nazi Germany era,
shutting down businesses, Courts divided and confused how to rule on any matter
relating to COVID-19 scam, nose diving global economy, divided states and
municipalities, standoffs between courts and law enforcement in charge of convicts3,
confusions, Draconian orders from states, COVID-19 creating extreme poverty
today that would make Great Depression look like “Roaring 20s” and scare tactics
that make “brainwash” look like IQ test. The de facto “monopoly” the media are
exhibiting to report everything about COVID-19 without challenge, investigation,
verification is the worst form of journalism (“Yellow Journalism” is a compliment) in
the industry that prides itself of First Amendment and Freedom of the Press. Voices
are now silenced and suppressed beyond comprehension, no one can question
anymore. COVID-19 is now the next “global cult” where an individual that wants to
question COVID-19 is ridiculed and media can’t wait to yell out the “BIG BAD
WOLF (COVID-19) WILL GET YOU AND TAKE YOU DOWN” if you dare question
it. Petitioner is the first individual due to his grave concern where this universe is
heading to file the first ever global COVID-19 Class Action to challenge the veracity
of COVID‘19. The COVID-19 challenge class action was filed on June 1, 2020 in the
United States District Court for the Eastern District of Virginia as a “Foundation”
to address the questionable elements of a virus some people are wondering if it
3 Some court orders were issued to release dangerous convicts based on bogus containing the spread of COVID-19.

8

really exists other than World Health Organization officials promoting it as the
virus that will “annihilate” the planet. Five months after the filing, petitioner
secured $25,000,000 ($25 million) loan (“funds”) to retain attorneys to prosecute,
experts with open mind, investigators, freelance journalists, upgrade website to give
public second opinions and investigate all the lies orchestrated by the media. The
$25 million will cover the pre-trial and other elements of the trial. This petition is
centered around the $25 million loan petitioner secured which is being blocked by
DOJ officials in San Francisco, California with no solid rule of law to do so other
than just plain animosity.
The global community deserves an answer if COVID'19 exists or not. A
lawsuit is the only way to challenge it which will allow Defendants to show up in
court and defend COVID-19 is not a hoax or global fraud. And Plaintiffs to
demonstrate that this is totally a hoax with their own evidence as in “sickness” and
“death” don’t constitute pandemic because people are bound to be sick and die every
day. COVID-19 vaccines constitute legitimacy of the virus. COVID-19 vaccines are
now the new form of global GENOCIDES where peoples across the globe will be
forced and coerced to take the toxin vaccines that no one knows what they will do to
people down the line after vaccines are administered.
This generation owe it to the next generations to right the wrong of COVID19 scam before it turned into a disaster we may not be able to fix for centuries after
this generation has gone replaced by new generations. People deserve to engage or
exercise their right to question something regardless who is promoting such thing.

9

There were events that led to Civil War4, not just one incident. The incidents
surrounding COVID‘19 scam would eventually eclipse those past events.
STATEMENT
1. The Government in November 2020 filed a lawsuit on behalf of the United States
of America (“Plaintiff’) against unnamed party pursuant to judicial forfeiture
action, as authorized by 18 U.S.C. §§ 981(a)(1)(A), 981(a)(1)(C), 981(b), and 21
U.S.C. § 881(a)(6), involving the seizure of the following property 69,370.22491543
Bitcoin (BTC), 69,370.10730857 Bitcoin Gold (BTG), 69,370.10710518 Bitcoin SV
(BSV), and 69,370.12818037 Bitcoin Cash (BCH) seized from
!HQ3Go3ggs8pFnXuHVHRytPCq5fGG8Hbh (“Defendant”). The lawsuit was later
amended.
2. Petitioner filed his own lawsuit on June 1, 2020 under a global class action to
declare COVID-19 a hoax with the United States District Court for the Eastern
District of Virginia. It was filed as a “foundation” only for lawyers to amend for
prosecution.

4 Northwest Ordinance, Kentucky and Virginia Resolutions, End of Atlantic slave trade, Missouri
Compromise, Tariff of 1828, Nat Turner's slave rebellion, Nullification crisis, Trial of Reuben
Crandall, Gag rule, Commonwealth v. Aves, Martyrdom of Elijah Lovejoy, Burning of Pennsylvania
Hall, End of slavery in British colonies, American Slavery as It Is, The Amistad affair, Prigg v.
Pennsylvania, Texas annexation, Mexican—American War, Wilmot Proviso, Nashville Convention,
Fugitive Slave Act of 1850, Uncle Tom's Cabin, Kansas-Nebraska Act, Recapture of Anthony Burns,
Ostend Manifesto, Caning of Charles Sumner, Bleeding Kansas, Dred Scott v. Sandford, Panic of
1857, The Impending Crisis of the South, Lincoln—Douglas debates, Oberlin—Wellington Rescue,
John Brown's raid on Harpers Ferry, 1860 presidential election, Crittenden Compromise, Secession
of Southern states, Star of the West, Peace Conference of 1861, Corwin Amendment, Battle of Fort
Sumter, President Lincoln's 75,000 volunteers.

10

3. Petitioner launched a website at www.toksbancorpetal.com for fundraising via
global press releases to direct people to make donations which was rejected by most
PR firms, including so-called press release companies notorious for “censorship”
disguised as editorial review to determine if such press release fits the public review
which is egregious because going to court serves the public. Petitioner finally
withdrew such strategy and embarked on designing postcards to engage in mass
mailing via pre-sorted format where various residents across United States will
receive postcards in their mail with the website name, amount to donate and in
return for Snickers Bar candy box with 48 counts of King Size for free but must be
over $20 and no maximum and anything under $20 will not receive Snickers Bar.
Petitioner contacted Mars, Incorporated the manufacturer of Snickers Bar to start
making arrangement to send Purchase Order5 which actually happened via email
provided by the office. Petitioner contacted a warehouse for lease to pay $148,000
for one year to receive the shipping of Snickers Bars. The pre-sorted mailings will
cost $500,000. The management of Mars, Incorporated never responded to such
business solicitation. Amazing a customer that wants to purchase legal products for
fundraising and refused. Petitioner abandoned such effort in spite of postcard
already designed and ready for printing.

5 Purchase Order is normally issued by the customer, not by the manufacturer, however
manufacturer issues invoice after delivery of such product to customer.

11

4. Other sources like litigation funding was also tapped by contacting investors that
invest in litigation in return for a piece of the award damages6 to the plaintiff.
5. November 9, 2020, emails and faxes were sent to David L. Anderson’s office after
petitioner read the press release of the seized assets and made an offer to pay $2.5
billion in cash and partner with United States and informed the office in San
Francisco, California and suggested the assets to be transferred to a wallet to be set
up in order to borrow funds against some of the bitcoins and pay retainer fees to
attorneys to file notices with district court and appeals court that the attorneys will
take over the class action. The petitioner went through the process to set up account
with BlockFi and signed the loan document for $25,000,000 ($25 million) with
instruction to deposit 3,083 bitcoins and funds will be transferred to corporate
account already set up. Petitioner notified the office of United Sates Attorney’s
Office for the Northern District of California about the loan and gave them the
“Username” and “Password” to make deposit of bitcoins, send a contract for him to
sign and notify appeals court in Virginia to participate in prosecution of the COVID19 scam challenge class action7 joining private attorneys.

6 The solicitation was not successful even though on the website it was outlined the largest Global
Stimulus and any litigation investors will get a cut in form of stock issue due to COVID-19 scam
class action litigation is not seeking damages against the defendants, this is strictly declaring the
virus a total hoax, fraud. The agreement is the prosecution costs will be covered by Lead Plaintiff for
both parties validating the class action is never about money to squeeze from defendants.
Purchase Order is normally issued by the customer, not by the manufacturer, however manufacturer
issues invoice after delivery of such product to customer.
7 The solicitation was not successful even though on the website it was outlined the largest Global
Stimulus and any litigation investors will get a cut in form of stock issue due to COVID-19 scam
class action litigation is not seeking damages against the defendants, this is strictly declaring the
virus a total hoax, fraud. The agreement is the prosecution costs will be covered by Lead Plaintiff for
both parties validating the class action is never about money to squeeze from defendants.

12

6. Petitioner never heard from the officials at DOJ office in San Francisco,
California and filed Motion For Intervention as “Plaintiff-Intervenor” on November
23, 2020 via mail and docketed November 25, 2020 since this is now a contract in
form of motion to make it official to pay $2.5 billion in cash for the seized assets.
These assets were never assets of any “victims” of typical fraud from Ponzi scheme
where required victims to file claim and established their investment in order to be
reimbursed. This is a classic assets forfeited due to unlawful activities. Dope dealers
and buyers don’t file claims to get their drugs and money back after a raid by law
enforcement that result in seizure of drugs and cash inside such premises. That was
the real reason petitioner made such offer because he read the complaint.
7. The motion to intervene and approval of counsels submitted to the court was
denied by order dated December 1, 2020 which has a typo of $250 million regarding
$25 million in loan petitioner outlined. Petitioner never wrote $250 million in loan
in the original motion. Also the footnote inside the order stated petitioner affixed
the names of attorneys for recommendation which is true because the intervenors
consist of entities and other parties from the COVID‘19 class action and Pro Se
never allowed to represent others, also the motion outlined the real purpose is to
use the $25 million to start the prosecution of COVID-19 class action challenge. The
order made it sound that petitioner was doing it as a “fraudulent” scheme but
acknowledged that petitioner inside the motion stated he drafted the motion and
motion to approve attorneys submitted to the court for approval. Why would any
party submit such fraudulent document in the open where it can be detected,

13

obviously it was never fraudulent because it was submitted for approval. The order
further stated such is not condone which is bizarre, this is just submission to
approve attorneys and motion for intervention and the DOJ officials were served.
Classic “prima facie.”
8. Petitioner submitted the second motion on his own behalf with his own name
because the first motion cannot be appealed since the attorneys submitted for
approval were denied.
9. Order issued on January 5, 2021 denied the motion and petitioner appealed filing
Notice of Appeal filed January 27, 2021.
10. Petitioner filed motions for in forma pauperis and court appointed counsel
because he’s PlaintiffTntervenor along with United States, Plaintiff in the civil
lawsuit to forfeit seized assets.
11. Petitioner filed Mediation Questionnaire Form and Supplement for
administrative settlement under Circuit Rule 3-4 to engage in discussion with
respondents via Circuit Court appointed mediator to sign contract and get the
bitcoins deposited to free the $25,000,000 loan because the purpose of Notice of
Appeal is about settlement, not seeking any “precedent.” The “madness” of COVID19 scam just continues to grow including authorities calling press conference to
discuss seizing “fake masks” which is hilarious and bizarre validating everything
about COVID-19 is a total scam. Fake masks?8 What’s next? Fake sanitizers.

There will never be such thing as “fake mask” because if the guideline is all about covering one’s
face, then anything used to cover such face should be acceptable validating COVID-19 is a total scam
to make money because certain people got to pick which kind of mask would protect people. BOGUS.

14

12. Petitioner filed motion to stay all proceedings at the appellate court under
Circuit Rule 27-3 based on grounds offer has been made to purchase assets, loan
secured to use funds and mediation requested. Including verified claims are not
victims, just trying their luck.
13. Respondents filed opposition to the motion to stay with case laws that did not
even address any form of motion to intervene, just case laws full of ironies
supporting petitioner’s own concern it raised about abuse by verified claims filed by
numerous parties.
14. Court of Appeals issued order on February 11, 2021 denying all motions,
however the order is “baseless,” “mischievous” and “moot.” Reasons are one, most
verified claims have withdrawn their claims when they found out petitioner made
offer to purchase assets because they’re not victims, but “vultures” seeking to try
their luck. Nothing to lose if court denies them claims. Two, on February 10, 2021
petitioner filed Form 6 Representation Statement with supplement that outlined
case laws that supported Courts have no obligation to appoint counsels for civil
litigants and by submitting an appellate attorney he contacted to take over the
mediation outlining the fees to be paid to the counsel via the $25 million loan which
cures the request for court appointed attorney. The Representation Statement was
filed February 10, 2021 and order to deny all motions filed February 11, 2021 which
validates the order was purposely filed to spook the attorney petitioner contacted
and causing trouble (mischievous). Three, in forma pauperis is “symbolic” because
petitioner believes by being PlaintiffTntervenor joining United States, the Plaintiff,

15

no need to pay $500 fee and since Mediation was initiated, there would be no need
to submit briefs9 as scheduled. Ninth Circuit encourages mediation for parties all
the time. Also petitioner actually outlined that the $500 fee will be paid to vacate in
forma pauperis as soon as the $25 million loan is accessed.
15. The attitudes from the courts here are classic “cult” mentality. COVID-19 scam
is now a global “cult” and victims of cult display enormous resentment when a party
questions the rationality of such involvement in this case the judges and the
jurisdiction are based in California and the delusion in California where lock downs
are as common as shooting of movies and TV shows on the streets of Los Angles and
inside studio facilities due to California is the entertainment capital of the world.
This very reaction is the very basis to sort out this writ of mandamus because it
takes money to right the wrong and also it takes money to engage in wrong. The
media are collecting huge money promoting COVID-19. Banks have raked in
billions in fees for loans guaranteed by government. Hospitals are collecting
insurance to cover hospital bills from their bogus treatment for COVID-19. Testing
companies raking millions on bogus COVID-19 testing—including employees
subjected to twice a week testing where test results are sent via SMS (texts) to the
employee and the employer has to pick up the tab. Mask manufactures that are
promoting their masks better than other masks. Scammers are raking in huge
funds defrauding the government under COVID-19 so called funding. COVID-19

9 Petitioner never once entertained to be part of the “circus” surrounding this at the lower court, only
interested in purchase because United States would not hand over $1 billion in assets seized to
verified claims (“vultures”) due to criminal activities. DOJ officials would have to auction them off
and mediation was initiated because of petitioner’s position to purchase seized assets.

16

scam vaccines10, the real “rainmaker.” The list is too long to invoke inside this
petition, an understatement.
REASONS FOR GRANTING PETITION
A writ of mandamus is warranted when a party establishes that (l) the “right
to issuance of the writ is clear and indisputable, (2) the party has no ‘other adequate
means to attain the relief sought,’ and (3) “the writ is appropriate under the
circumstances.” Mandamus is reserved for “exceptional circumstances” (my GOD,
COVTD-19 is beyond “exceptional circumstances”) amounting to judicial usurpation
of power. Petitioner submitting this writ with no citations is supported with this
Court’s experience and all citations are omitted for now because if this writ of
mandamus is submitted handwritten, the court should still grant unanimously.
The factors for mandamus are readily satisfied. The consensus here is
everybody deserves the truth about COVID-19. If COVID-19 is real, let the
defendants come to court and prove it. If COVID-19 is a scam, let the plaintiffs show
up in court and prove it. Courts cannot afford to shut doors of justice here
regardless how people feel about COVID-19. COVID-19 is highly questionable
because the elements the COVID-19 scammers (WHO) use are “sickness” and
“death” and those elements are in abundance because people are bound to die every
day and ironically the COVID-19 scammers are saying it is not okay to die. It is
10 COVID-19 scam vaccines already killing people invalidating the very fantasy WHO officials are promoting as in
"saving lives." The vaccines will kill more down the line because people react differently to chemicals, some might
die right away, others down the line. China even denied WHO officials access to Wuhan lab because WHO officials
need to keep one step ahead of their scam just like scammers do, need to pretend something happened at Wuhan
lab. Total nonsense, if anything happened in Wuhan lab, it would be confined to Wuhan lab, would not extend
outside Wuhan lab (this was outlined inside the original complaint filed with district court in Virginia using nuclear
accidents as example that those incidents were confined to the vicinity, never extended beyond that making
COVID-19 a scam) like the whole world is now contaminated.

17

okay to die11, even victims of crimes die if they did not survive the crime against
them.
$25,000,000 in loan that does not affect United States due to the loan will be
repaid by other means and $2.5 billion will be arranged via credit facility to pay
United States should be enough for the Court to allow this to proceed. United
States’ $26.1 trillion in deficit will climb to $100 trillion if COVID-19 scam is
allowed to be legalized. At this stage, not because people are demonstrating to abide
by the bogus guidelines doesn’t mean such virus exists. People engage in radical
behaviors across the globe does that mean what they do are proper? WHO named
this nonsense COVID-19 and now they’re promoting it with everything they got
including bogus COVID-19 vaccines. One country just conducted their own press
release that their vaccine cures COVID-19, pretty soon they will lawyer up to gain
market share in the United States. Enough is enough. Let’s face reality that when
people die12, that’s the way it supposed to be as opposed to this superficial concerns
people shouldn’t die.
What’s so sad about COVID-19 scam is people are now going to suffer more
due to hospitals and medical professionals will refuse to make proper diagnosis that
deserve proper treatment, instead to support COVID-19 scam, they will be able to
switch such ailment to COVID-19 and thus leading to wrong treatment.

11 This Court will be shocked for this parallel: ABORTION is a classic example that sustains the element of mortality.
At one junction one's life will be terminated and it could happen from the inside or outside if such person gets
outside. You came to this planet, guarantee you will be gone irrelevant if from the inside or from the outside.
Euphemism is not the norm here. 200 years from now, everyone here today will be gone just like 200 years ago, all
peoples here back then were gone.
12 The late William Rehnquist replaced another Chief Justice and he too replaced another and it goes on. Enough,
human beings will never be "immortal."

18

This writ of mandamus is a testament for the next generations that people
that voiced their concerns are silenced, but evidence supports that not everybody
subscribed to this bogus virus named COVID-19. It does not exist and time for
people to face reality as opposed to “illusion of immortality” being preached across
the globe.
Holocaust started slowly way before 1930s when people are just being
slaughtered, however the true ugliness that will support the new genocides from
COVID-19 is the same as in “weakness” and “limitation” of human beings. Hitler
and his henchmen lacked the full resources to monitor every human they arrested
on false pretense (just like COVID-19 arrests of bogus allegation some people tested
positive and they’re in violation which is bizarre because how would one actually
know they would be positive when they never had the opportunity to test based on
there’re no symptoms to push them to seek testing, including the shocking element
COVID-19 testing is not uniform, everybody is just pretending they test people and
use their discretion to label “positive” or “negative”), so the solution is to KILL them
and that’s what COVID-19 genocides will embrace, no resources to monitor every
soul, just take them out to reduce the stress tracking people with the virus. It is
UGLY.
Article I, Section 1 is mandatory under the Constitution which is the reason
why Congress and Senate are forced to fund COVID-19 scam on false pretense some
deadly virus will obliterate this universe, but if that’s the case, all the money in the

19

world would not be able to stop it just like any individual with all the money in the
world would not be able to prevent their own demise.
Article III, Section 1 grants the Supreme Court of the United States via this
writ to terminate the circus at the lower court unfolding at district court of
Northern California.
Article III, Section 2 allows United States to be party13 to any Cases
including controversies arising from this COVID-19 class action challenge which is
pending before District Court for Eastern Virginia, Richmond division---including
the right of public and petitioner to know if COVID-19 is real or not, period. This
very article also forbids others to be treated different because petitioner resides in
Jacksonville, Florida and the motion for intervention was filed in district court in
San Francisco, California which could explain the denial of the offer to purchase the
assets due to the language inside the order petitioner is “rambling” and engaging in
fantasy which interestingly, the order never outlined the evidence COVID-19 is not
a scam. All orders from courts dealing with COVID-19 actions (lawsuits) never
addressed the evidence COVID-19 is real supporting time for the truth. No one is
above the law.
Article II, Section 4 allows the removal of United States President and all
other public officers that are subjected to impeachment, however the last
impeachment is a total miscarriage of justice because COVID-19 scam is the root of
the chaos in this country and across the globe and the only way to address this is to

13 The Respondents as Appellees in their response opposing stay petitioner filed as Appellant with Circuit Court
actually questioned the right of United States to be party to COVID-19 class action challenge.

20

allow funds to be released to prosecute COVID-19 class action challenge. The
reaction to this is there was no conviction, the party impeached was acquitted, but
the problem with such argument is the impeachment was implemented due to the
past riot blamed on the wrong party as opposed to the bigger picture which is
COVID-19 scam. No election is proper when people are restricted to vote and forced
to send their votes via mail due to bogus precaution to contain spread of a virus.
The irony here is this very Court and all courts across United States and
around the globe use both sides and third parties’ sides to make decisions that can
impact generations to come. But COVID-19 scammers (WHO) are the first “Global
Dictator” where whatever they say goes. No challenge, no verification, just accept
what we put out there. Come on, no organization should enjoy such luxury. Any
organization can be challenged, questioned in a proper forum which we call “Court”
and that’s where we’re heading and it takes money to do so because COVID-19
scammers are enjoying all the money in the world to promote their “scam.”
This Court should allow this agenda of COVID-19 class action challenge to
proceed on because it takes money to seek justice. Petitioner secured funds and no
need for DOJ officials acting on false pretense of rule of law that doesn’t exist to
oppose the sale. The assets will be sold and there’re no victims to claim these assets
and they were supposed to be auctioned off.

CITATION(S)

21

Petitioner has purposely omit to cite case laws because currently all the case
laws associated with COVID'19 (regardless of the orders) are misguided and totally
misconception because the rulings were based on COVID-19’s existence, however
COVID'19 has been challenged and at this stage, no one can actually submit
evidence COVID'19 exists based on “sickness” and “death” don’t constitute
“pandemic” due to such elements are daily occurrence since the inception of this
universe. This is the first writ that purposely omitted citations.
CONCLUSION
For the foregoing reasons, the Court should issue a writ of mandamus
directing the United States Attorney’s Office for the Northern District of California
or any government official to prepare a contract for petitioner to sign paying $2.5
billion in cash within 90 days via credit facility or its proposed bond offering via
Toks Banc Corp (the Lead Plaintiff in the pending class action challenging COVID19) and also direct the officials to make deposit of 3,083 bitcoins into the wallet that
will serve as collateral against the $25 million loan which is only 12 months to pay
it back in order to retain attorneys and other experts that will contribute to the
prosecution of COVID'19 class action challenge.

Respectfully submitted,
ADESIJUOLA OGUNJOBI

/s/Adesijuola Ogunjobi

22

March 9, 2021

